Filed 2/11/20

NOT TO BE PUBLISHED IN OFFICIAL REPORTS

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SIXTH APPELLATE DISTRICT
-

In re the Marriage of FIDA MHANNA and
GHASSAN HAGE.

H045077
(Santa Clara County
Super. Ct No. 2013-6-FLO10520)

FIDA MHANNA,
Respondent,
v.
GHASSAN HAGE,
Appellant.

In this marital dissolution proceeding, Fida Mhanna brought a motion pursuant to
Code of Civil Procedure section 3911 to declare her former husband, appellant Ghassan
Hage, a vexatious litigant. The court granted the motion after a lengthy hearing.
Hage contends on appeal that the trial court erred because it (1) permitted
Mhanna’s counsel, David A. Yomtov, to introduce exhibits notwithstanding counsel’s
failure to provide copies to Hage prior to the hearing, and (2) denied Hage’s request for a
continuance of the hearing. Finding no error, we will affirm.

All further unspecified statutory references are to the Code of Civil Procedure.

<5?CL

I,

PROCEDURAL HISTORY

A judgment of dissolution was filed on October 23,2014.
On January 19,2017, Mhanna filed a request for order (the request) finding Hage
to be a vexatious litigant pursuant to section 391. The request—which was under penalty
of perjury and contained a detailed recitation of the alleged facts upon which it was based
and an attachment listing 24 motions filed by Hage over a period of approximately two
years—was accompanied by a memorandum of points and authorities and a decl aration
of counsel, Yomtov.
In the request, Mhanna alleged that the dissolution proceeding was resolved after a
settlement conference on July 28,2014, and her attorney accordingly substituted out of
the case. Since the entry of judgment in October 2014, Hage had filed 24 separate
requests for orders (hereafter motions). Mhanna included as an attachment to the request
a summary that included each motion’s filing date, requested relief, hearing date,
outcome, and related order filed. Mhanna stated that all of Hage’s motions “caused [her]
to incur legal fees that [she could not] afford to pay.” She stated that her attorney had
expended more than 140 hours to address Hage’s motions and to enforce Hage’s child
support obligations. The legal fees incurred since the July 2014 settlement were in
excess of $45,000.
Mhanna described from her perspective in the request the nonmeritorious nature of
Hage’s motions. She stated that four of the motions were combined into a single hearing
on February 26,2015, at which time all four were denied by the court. She declared that
a number of the motions were duplicative. Specifically, there were two motions to
correct the judgment, four motions to prohibit Mhanna’s travel, two motions to release
police records, two motions to modify attorney fee awards, and two custody modification
motions. In several instances—including Hage’s motions seeking release of Mhanna’s
immigration application file and to “issue a ‘defamation’ judgment against [Mhanna’s]
counsel”—the court specifically found Hage’s motions to be frivolous. Mhanna declared
2

3 a.

that only two of the motions—a motion to correct judgment that was granted in part and
denied in part and a motion to permit Hage to take the parties’ children to Lebanon, to
which Mhanna ultimately stipulated—were meritorious. Mhanna stated in her summary
that 15 of Hage’s motions were specifically denied by the court. Mhanna stated that one
motion—pertaining to religious matters—was not served upon her and “was deemed
frivolous and outside of the court’s jurisdiction.” (Original emphasis.)
Mhanna addressed a custody modification motion in which Hage sought
u c

seventy[-]nine percent custody.’ ” After Mhanna requested pendente lite fees, Hage

withdrew the custody request, only to refile it several months later, stating; “his
withdrawal had been made ‘conditionally.
Another motion by Hage concerned his request to amend a prior order in which
Mhanna had been awarded $5,000 attorney fees, calling for payment to be deferred to
2016 and payable in $1,000 installments. Mhanna described Hage’s motion as one
seeking to modify the order so that Hage could “put [paying the fees] off for a few years,
but [he] offered no new evidence or law to support this request.” The court denied
Hage’s motion; Hage had “still failfed] and refuse[d] to comply with this [attorney fee]
order.”
Mhanna also identified a motion by Hage to require Mhanna to pay one-half of
private school tuition. She stated the issue had been addressed in Hage’s prior motion to
modify judgment; dissatisfied with the court’s decision then, Hage brought the new
motion, “offer[ing] no new evidence, no changes in law, [and] no legal authorities.” The
motion was denied.
In addition to die foregoing, Mhanna noted that Hage had threatened to file
applications seeking contempt orders against her, notwithstanding the matters concerned
issues for which no orders existed. Further, Hage filed a small claims action against
Mhanna’s attorney, Yomtov, related to the family court proceedings, which complaint
was denied.
3

In the points and authorities filed on Mhanna’s behalf in support of the request,
Mhanna argued that Hage’s conduct ran afoul of the vexatious litigant statute in two
respects. First, Hage’s filing of 24 motions since entry of judgment constituted being a
vexatious litigant under section 391, subdivision (b)(1) which provides: “In the
immediately preceding seven-year period has commenced, prosecuted, or maintained in
propria persona at least five litigations other than in a small claims court that have been
(i) finally determined adversely to the person....” Second, Mhanna argued, Hage’s
conduct was that of a vexatious litigant as defined under section 391, subdivision (b)(3)
as follows: “In any litigation while acting in propria persona, repeatedly files
unmeritorious motions, pleadings, or other papers, conducts unnecessary discovery, or
engages in other tactics that are frivolous or solely intended to cause unnecessary delay.”
Hage submitted points and authorities in opposition to the request. Based upon the
record before us, he submitted no declaration under penalty of perjury responding to the
facts alleged in the request. In Hage’s points and authorities, he countered that he should
not be found a vexatious litigant, “but [the court should find Mhanna’s] Attorney David
Yomtov as corrupted lawyer and [Mhanna] to be found as arrogant disobedient of the law
supported by her lawyer. [Sic.]” (Original underscoring.) In Hage’s opposition, he did
not dispute that he had filed the 24 motions enumerated in the request. And he concurred
with Mhanna that, as to a number of the motions, the court had denied them. Hage also
asserted in his opposition that he had filed three complaints in court against Yomtov (two
of which also named Mhanna), three complaints with the California State Bar against
Yomtov, and an accusation with the California Supreme Court against Yomtov.
On June 22,2017, the court held a lengthy evidentiary hearing on the request. On
August 1, 2017, the court filed an amended order granting the request.2 The court found

2 The record does not include any initial order concerning the request, which
would have presumably preceded the August 1,2017 amended order.
4

Scx_

that although Hage had partial success with a number of his motions, “[o]n balance
the meritless or unnecessary motions far outweigh[ed] those that had merit.” The court
thus concluded that Mhanna had “met her burden of proof and established ... that [Hage
met] the criteria for being declared a vexatious litigant pursuant to Code of Civil
Procedure § 391, subdivision (b) et seq.” The court therefore ordered, inter alia, that
Hage was barred from filing any further litigation while representing himself without his
first obtaining leave of court from the presiding judge.
Hage filed a timely notice of appeal from the order.3
II.
A.

DISCUSSION

Vexatious Litigant Statutes

As the California Supreme Court has explained: “The vexatious litigant statutes
(§§ 391-391.7) are designed to curb misuse of the court system by those persistent and
obsessive litigants who, repeatedly litigating the same issues through groundless actions,
waste the time and resources of the court system and other litigants. [Citation.]”
(Shalant v. Girardi (2011) 51 Cal.4th 1164,1169 (Shalant).) Under section 391,
subdivision (b), a “ e[v]exatious litigant’ ” is “a person who has, while acting in propria
persona, initiated or prosecuted numerous meritless litigations, relitigated or attempted
to relitigate matters previously determined against him or her, repeatedly pursued
unmeritorious or frivolous tactics in litigation, or who has previously been declared a
vexatious litigant in a related action.” (Shalant, supra, at pp. 1169-1170.)
Subdivision (b)(3) of section 391 is the provision here that the trial court cited in finding
3 This court issued an order to show cause on October 20,2017, directing Hage to
advise by letter brief why the case should not be dismissed as being an appeal from a
nonappeaiable order. Hage filed a letter brief, and Mhanna filed a responsive letter brief.
Having considered this issue, the order to show cause is dissolved, as we conclude that
the appeal from the order is proper. (See In re Marriage ofRifkin & Carty (2015) 234
Cal.App.4th 1339,1347 (Rifkin) [order declaring party vexatious litigant and imposing a
prefiling requirement for any new filing in propria persona under § 391.7 is an injunction
and therefore appealable].)
5

£cl

Hage to be a vexatious litigant. It provides that a vexatious litigant is a person “[i]n any
litigation [who,] while acting in propria persona, repeatedly files unmeritorious motions,
pleadings, or other papers, conducts unnecessary discovery, or engages in other tactics
that are frivolous or solely intended to cause unnecessary delay.” (§ 391, subd. (b)(3).)
There are two “sets of remedies” provided in the vexatious litigant statutes.
(Rifkin, supra, 234 Cal.App.4th atp. 1345.) First, sections 391.1 through 391.6, enacted
in 1963, provide “a means of moderating a vexatious litigant’s tendency to engage in
meritless litigation. [Citations.] Under these sections, a defendant may stay pending
l itigation by moving to require a vexatious litigant to furnish security if the court
determines ‘there is not a reasonable probability ’ the plaintiff will prevail. Failure to
produce the ordered security results in dismissal of the litigation in favor of the
defendant. [Citations.]” (Bravo v. Ismaj (2002) 99 Cal.App.4th 211, 221 {Bravo))
The second aspect of the statutes, enacted in 1990, is the prefiling order requirement of
section 391.7, which is the remedy relevant in this case. {Shalant, supra, 51 Ca!.4th at
p. 1170.) Section 391.7 «

c cc

operates beyond the pending case” and authorizes a court to

enter a “prefiling order” that prohibits a vexatious litigant from filing any new litigation
in propria persona without first obtaining permission from the presiding judge.
{Shalant, supra, at p. 1170.) In general under the vexatious litigant statutes,
u « u

[litigation” ’ means ‘any civil action or proceeding, commenced, maintained or

pending in any state or federal court,’ (§ 391, subd. (a).) The statute governing prefiling
orders, however, provides an additional definition of the term: “for purposes of
section 391.7, ‘ “litigation” includes any petition, application, or motion other than a
discovery motion, in a proceeding under the Family Code or Probate Code, for any
order.’ (§ 391.7, subd. (d).)” {Rifkin, supra, at pp. 1345-1346.)
“The trial court exercises its discretion in determining whether a person is a
vexatious litigant. Review of the order is accordingly limited and the Court of Appeal

6

?GL

will uphold the ruling if it is supported by substantial evidence .” (Golin v. Allenby
(2010) 190 Cal.App.4th 616,636; see also Bravo, supra, 99 Cal.App.4th at p. 219.)
B.

Standard of Review

Hage’s two challenges concern (1) the court’s admission of evidence presented by
Mhanna at the hearing in support of the request, and (2) the court’s denial of Hage’s
request to continue the hearing by extending the proceedings to a second day.4
A trial court’s ruling on the admissibility of evidence is reviewed for abuse of
discretion. (People v. Harris (2005) 37 Cal.4th 310, 337; Christ v. Schwartz (2016)
2 Cal.App.5th 440,446-447.) Similarly, an appellate court reviews a ruling granting
or denying a request for judicial notice under an abuse of discretion standard.
(Washington v. County of Contra Costa (1995) 38 Cal.App.4th 890, 901 (Washington)-,
see also In re Social Services Payment Cases (2008) 166 Cal.App.4th 1249,1271.) An
abuse of discretion occurs where it is shown that “ ‘the trial court exercised its discretion
in an arbitrary, capricious, or patently absurd manner that resulted in a manifest
miscarriage of justice [citation].’ [Citation.]” (People v. Carrington (2009) 47 Cal,4th
145,195.)
A trial court’s decision to grant or deny a continuance will not be disturbed on
appeal except upon a clear showing of an abuse of discretion. (Lazarus v. Titmus (1998)
64 Cal.App.4th 1242, 1249.) Likewise, “[w]e review the trial court’s imposition of time
limits [injudicial proceedings] for abuse of discretion. [Citation.]” (People v. ConAgra
Grocery Products Co. (2017) 17 Cal.App.5th 51,148 (ConAgra)) It is the appellant’s
burden of showing from the record the existence of such an abuse of discretion.
(Forthmann v. Boyer (2002) 97 Cal.App.4th 977, 984-985.)

4 Hage does not present a challenge to the order finding him to be a vexatious
litigant on the ground that it was not supported by substantial evidence. Accordingly, we
will not address any substantive challenge to the order.
7

S’CL

C.

The Court Did Not Err
h

Hage’s Argument

Hage argues on appeal that the court erred. As this court understands Hage’s
argument, it is that there were two interrelated errors that were prejudicial to his case.
First, Hage contends the trial court erred when it accepted two binders of
documents submitted by Mhanna at the hearing, notwithstanding the fact that her counsel,
Yomtov, failed to provide copies to Hage prior to the hearing. He contends that Mhanna
was required by a prior court order to submit to Hage a specified number of days prior to
the hearing all exhibits she intended to rely upon in support of her request. The prior
court order was filed on July 12,2016, after the court, on June 6,2016, had vacated a
hearing on Mhanna’s prior motion to have Hage declared a vexatious litigant. In the
July 12,2016 order—issued by a different superior court judge who had presided over
numerous earlier hearings in the dissolution proceeding—the court required that, in the
event Mhanna refiled her motion, she was to (1) indicate that it was a long-cause matter,
and (2) “[sjubmit all exhibits to the court and to [Hage] no later than ten days prior to the
hearing.”
Second, Hage contends that the trial court erred in refusing to continue the hearing
after Hage requested additional time to complete his case in opposition to the request. He
argued that the court “failed to keep its agreement with [Hage] of having the [v]exatious
litigant long[-cause] trial to be more than one day to cover 4 years.” Instead, the court
concluded the hearing after one day of proceedings.
2.

Background Concerning Claims ofError

The hearing on the request commenced on the morning of June 22,2017, and
concluded after 5:00 p.m. that day. The length of the reporter’s transcript demonstrates
the court devoted a full day to hearing the case.5 After a discussion concerning pending
5 The reporter’s transcript consists of 220 pages.
8

<?CL

proceedings in the case other than the request to declare Hage a vexatious litigant,
Mhanna’s counsel Yomtov gave an opening statement. At the conclusion of Hage’s
opening statement, Hage advised the court that he believed the hearing should take
multiple days to complete. Hage stated: “Your Honor, it’s a long cause, it’s going to be
three days. But Your Honor, you said we’ll do one day and then we’ll continue, and I
accept all this.”6
Yomtov provided the court and Hage with two binders containing copies of court
records with 34 separate tabs. As represented by Yomtov, the majority of the documents
were ones that had been authored by Hage. Yomtov requested that the court take judicial
notice of these filings. None of the tabbed documents was marked or introduced as an
exhibit on behalf of Mhanna.
Yomtov spent a large segment of the morning’s proceedings reviewing the
documents of which he was requesting judicial notice, and, by offer of proof, explaining
to the court why he believed the documents supported a vexatious litigant finding. The
documents in the two binders were largely the supporting documents for Hage’s 24
separate motions identified in the request and as detailed in the attachment to the request,
discussed ante. The presentation at the hearing included documents pertaining to some
proceedings not identified in the request, including motions by Hage filed May 4,2015,
March 13, 2017, March 21,2017, and March 25,2017, a small claims complaint by
Hage, a civil complaint by Hage, and a second civil complaint by Hage. It was noted by
Yomtov and confirmed by the court that there were specific findings by the court in
written orders that two of Hage’s motions were frivolous. One motion concerned a
motion filed March 23,2016, and the second involved a motion by Hage filed April 29,
2016.
6 The court did not confirm Hage’s assertion, and there is nothing in the record to
suggest that the court advised the parties that it anticipated conducting a multiple-day
hearing.
9

fo CL

The court ruled that it was taking judicial notice of the court’s file; it requested
that Yomtov “more particularly explain what parts of the file that the Court [was] taking
judicial notice of.” The court also took judicial notice of (1) a small claims complaint
filed by Hage against Yomtov and a judgment entered in that action, (2) a limited
jurisdiction civil suit filed by Hage against Mhanna and Yomtov, and (3) an unlimited
civil suit filed by Hage against Mhanna and Yomtov.
Hage repeatedly objected to the documents referenced in the binders submitted by
Mhanna. His objections, however, were not based upon whether judicial notice should
be taken of the documents. Rather, Hage’s objections were in the nature of responding
substantively to whether the documents-—generally, court filings by Hage and orders on
motions made by Hage—supported the request that Hage be declared a vexatious litigant.
The court advised Hage repeatedly that such arguments concerning the substance of the
documents were not proper objections, and that he should reserve such comments for the
time when he presented his case.
Hage presented his case for the balance of the morning session and nearly the
entire afternoon session.7 As the court broke for lunch, Hage advised: “I want to also
ask the Court to keep in mind that this will need to be continued because there are items
to—The court responded: “This case is not going to be continued. We’re hearing this
case today. You have until 4:45 today.” The court later reiterated to Hage while he was
presenting his case that the hearing would be concluded at 4:45 p.m. that day.8

7 The reporter’s transcript shows that Hage’s responsive presentation consumed
more than double the time of Yomtov’s presentation of Mhanna’s case in chief.
8 Toward the end of the day while he was still presenting his case, Hage again
suggested to the court that the case needed to be continued. The court rejected the
request: “No, I’m finding that you spent a lot of time, Mr. Hage, on a bunch of exhibits
that I’m not sure are very relevant. But after several times to try to direct you to what
you’re doing now in the last 20 or 30 minutes of this case, unfortunately you didn’t do
that earlier.”
10

//ec

During the afternoon session, while Hage was presenting his case, identifying a
number of exhibits in doing so, he objected to the fact that Yomtov did not provide the
two binders of documents for which he sought judicial notice five days before the
hearing, but instead only provided them when the hearing commenced. The court
overruled this objection, stating: “Mr. Hage, the time for you to tell the Court that
you had an objection to any of Mr. Yomtov’s exhibits was at 9:00 o’clock this morning
when the Court sat down with these binders and we started this case. You didn’t say a
word about that. [f]... [f] I’m just saying if you had an objection to Mr. Yomtov’s
exhibits—and by the way, all of his exhibits are just the Court file.” The court later
reiterated that it was overruling Hage’s procedural objection because he had failed to
make it during the presentation of the two binders of court documents by Yomtov.
After hearing argument from both parties, the court submitted the matter. On
August 1, 2017, the court filed an amended order declaring Hage a vexatious litigant
under section 391, subdivision (b).
3.

Discussion of Claims of Error

We initially address Hage’s contention that the court erred by accepting two
binders of documents submitted by Mhanna at the hearing, which had not been provided
to Hage at least 10 days prior to the hearing in alleged contravention of the court’s prior
order of July 12,2016. This claim fails for three reasons.
First, Hage’s objections were untimely. As was noted by the trial court, Yomtov
presented the two binders of court-filed documents in Mhanna’s case in chief without
procedural objection raised by Hage. This presentation by Yomtov consumed most of
the morning of the hearing and, although (as discussed, ante), Hage asserted “objections”
to many of the documents, his comments were uniformly a response attempting to rebut
the claim that the documents showed him to be a vexatious litigant. “An objection to
evidence must general ly be preserved by specific objection at the time the evidence is

11

I <2CL

introduced ” {People v. Demetrulias (2006) 39 Cal.4th 1,22.) Hage failed to preserve
his procedural objection to the documents submitted on behalf of Mhanna at the hearing.
Second, Hage’s argument is based upon the false premise that the two binders of
tabbed documents presented by Yomtov at the hearing were, in fact, exhibits, and were
thus subject to the court’s July 12,2016 order that they be exchanged in advance of the
hearing. None of the tabbed documents was marked or introduced as an exhibit on behal f
of Mhanna. Instead, Yomtov requested that the court take judicial notice of these court
filings. The court—without objection from Hage that it was procedurally improper to
judicially notice the documents—granted the request for judicial notice. Hage’s failure to
timely assert a procedural objection to the documents notwithstanding, the court’s order
judicially noticing the documents was not in contravention of its prior July 12,2016 order
concerning the advance exchange of exhibits.
Third, even were we to construe Hage’s challenge here as being the assertion that
the court erred in granting judicial notice of the documents submitted by Mhanna, such a
claim lacks merit. The court may take judicial notice of the “[rjecords of (1) any court of
this state ....” (Evid. Code, § 452, subd. (d).) Thus, unquestionably, a “court may
judicially notice its own records and proceedings in the same case. [Citations.]” (City
etc. ofSan Francisco v. Carraro (1963) 220 Cal.App.2d 509, 527 (Carraro).) The
documents of which Mhanna requested judicial notice were almost entirely motions and
orders filed in this proceeding that were judicially noticeable under Carraro. The
remaining documents—the small claims documents and the complaints in the two civil
suits filed by Hage in the Santa Clara County Superior Court—were likewise the proper
subjects of judicial notice under Evidence Code section 452, subdivision (d)(1). Indeed,
any argument by Hage to the contrary would be inconsistent with his conduct at the
hearing. Hage himself requested that the court take judicial notice of certain court-filed
documents, including documents filed in this proceeding and one of his civil complaints.
Further, his contention that he was prejudiced by the court’s taking judicial notice of the
12

/3ol

documents is without merit. As noted, the documents were not exhibits identified and
introduced by Yomtov. Moreover, the vast majority of the documents in the two binders
submitted by Mhanna related to motions filed by Hage and rulings of the court thereon
that were identified specifically in the request—and, in particular, in the two-page
summary of motions that was part of the request. The request was filed more than Jive
months before the hearing. The court below did not abuse its discretion by granting the
request for judicial notice. (See Washington, supra, 38 Cal.App.4th at p. 901.)
Hage’s second claim of error is that the court, despite Hage’s request and a
purported agreement of the court to conduct a multiple-day hearing, denied his request to
continue the hearing to a second day. He asserts that the “[cjourt failed to keep its
agreement with [him] of having the [v]exatious litigant long [cause] trial to be more than
one day to cover 4 years.” He reiterates his assertion that the court did not “keep its
agreement... of continuing the trial for more than one day.” Hage provides no citation
to the record in support of any “agreement” by the court to hold a multiple-day hearing
on the request. “When an appellant’s brief makes no reference to the pages of the record
where a point can be found, an appellate court need not search through the record in an
effort to discover the point purportedly made. [Citations.] We can simply deem the
contention to lack foundation and, thus, to be forfeited. [Citations.]” {In re S.C. (2006)
138 Cal. App.4th 396,406-407.)
As best we can ascertain, we believe Hage’s assertion that he was entitled to more
than one day for the hearing on the request is founded upon his incorrect understanding
of the meaning of “long cause” and upon the language in the court’s My 12,2016 order
that, in the event Mhanna chose to refile the request for a determination that Hage was a
vexatious litigant, she was required to indicate that it was a long-cause matter. As
defined by Superior Court of Santa Clara County, Family Local Rules, rule 5H—of
which we take judicial notice (Evid. Code, §§ 451,459; see Reynolds v. City of Calistoga
(2014) 223 Cal.App.4th 865, 870, fn. 5)—“[a] Tong cause’ hearing is any hearing other
13

(tfOL

than a trial that will take longer than 30 minutes.” To the extent that the court’s July 12,
2016 order constituted an “agreement” that Mhanna’s request be heard as a long cause
matter, the hearing, which consumed an entire day, was consistent with the order that the
hearing take more than 30 minutes to conclude.
Moreover, Hage’s challenge to the court’s denial of his request that the hearing
extend into a second day ignores the broad discretion with which the trial court is vested
in providing for the efficient and orderly administration of justice. “A trial court has the
inherent authority and responsibility to fairly and efficiently administer the judicial
proceedings before it. [Citations.] This authority includes the power to supervise
proceedings for the orderly conduct of the court’s business and to guard against inept
procedures and unnecessary indulgences that tend to delay the conduct of its
proceedings.” (California Crane School, Inc. v. National Com. for Certification of Crane
Operators (2014) 226 Cal.App.4th 12,22, fn. omitted (California Crane)', see also Code
Civ. Proc., § 128, subd. (a)(3) [every court has the power “[t]o provide for the orderly
conduct of proceedings before it”].) “In particular, courts have the authority to request
time estimates and enforce time limits, as long as the limits are reasonable and the court
remains ‘mindful that each party is entitled to a full and fair opportunity to present its
case.’ [Citations.]” (In re Harley C. (2019) 37 Cal.App.5th 494, 513, cone, opn.,
Segal, J., quoting California Crane, supra, at p. 21.) Here, the trial court—allowing
Hage to present his defense to the request for a portion of the morning session and the
entire afternoon session of the hearing—afforded Hage a full and fair opportunity to
present his case. The court did not abuse its discretion by denying Hage’s request that
the hearing be extended into a second day. (See ConAgra, supra, 17 Cal.App.5th at
p. 148.)
III.

DISPOSITION

The August 1,2017 order declaring appellant Ghassan Hage to be a vexatious
litigant is affirmed.
14

ISol

BAMATTRE-MANOUKIAN, J.

WE CONCUR:

PREMO, ACTING P.J.

MIHARA, J.

Mhanna v. Huge
H045077

I&CU

i

L E

i
2

AUG 0 1 20i17

3

Superior Court of CA County tif S

4

BY

R. Bblligari ^

■PUTY

5

6

SUPERIOR COURT, STATE OF CALIFORNIA

7

COUNTY OF SANTA CLARA

8
9
10

In re the Marriage of:
FIDIA MHANNA,

)
)
)

) Case No.: 2013-6-FL-010520'
)

Petitioner,

11
12
13
14

and
GHASSAN HAGE,
Respondent.

)
)
)
)
)
)
)
)

AMENDED ORDER FOLLOWING
HEARING ON PETITIONER’S MOTION
FOR ORDER DECLARING RESPONDENT
GHASSAN HAGE VEXATIOUS LITIGANT
PURSUANT TO CCP § 391 AND FOR
ORDER PROHIBITING THE fILING OF
NEW LITIGATION PURSUANT TO CCP§
391.7(a)

15

)

16

) DEPARTMENT 76
) HON. Christopher G. Rudy
) DATE: 06/22/17

17
18

The above matter was heard on the above date in Department 76 before the Honorable

19

Christopher G. Rudy. David A. Yomtov, Esq., appeared with and for Petitioner. Respondent

20

appeared on his own behalf. Witnesses having been sworn and heard, documentary evidence

21

having been admitted and the argument of counsel and the parties having been considered, the

22

court makes the following findings and orders:

23
24
25

I. Background
This action arises out of a dissolution and custody matter. The Parties were married five
!

years and one month. There a're two children of the marriage (Marie-Therese 11/11/09 and Clara

In re, Mhanna and Hage 2013-6-FL-010520
-1-

/7a
i

1

9/25/11). The case has been remarkable for the level of discord between the parties and the

2

amount of post judgement litigation over issues related to support and parenting. 'Petitioner

3

contends that Respondent has been the driving force behind the vast majority of tike litigation.

4

Petitioner further contends that, for the most part, Respondent’s motions have been meritless or

5

improper attempts to re litigate questions that have already been decided. Petitioner seeks an

6

order declaring Respondent a vexatious litigant.

7

8

I

II. Discussion

i

Code of Civil Procedure §391, subdivision (b) provides, in relevant part, “!‘Vexatious

9

litigant’ means a person who does any of the following: [TO • • • [10 (3) In any litigation while

10

acting in propria persona, repeatedly files unmeritorious motions, pleadings, or other papers,

11

conducts unnecessary discovery, or engages in other tactics that are frivolous or solely intended

12

to cause unnecessary delay.” Subsection (b)(3) of section 391 does not define “repeatedly” or
i

13

“unmeritorious.” The determination is left to the trial court’s discretion. (Morton v. Wagner

14

(Morton) (2007) 156 Cal.App.4th 963, 971; Bravo v. Ismaj (Bravo) (2002) 99 Cal.App.4th 211,

15

219; Holcomb v. U.S. Bank Nat. Assn. (2005) 129 Cal.App.4th 1494,1505^-1506!)

16

That a motion fails does not necessarily make it "unmeritorious." "The repeated motions
|

17

must be so devoid of merit and be so frivolous that they can be described as a

18

‘flagrant abuse of the system,’ have ‘no reasonable probability of success,’ lack Reasonable or

19

probable cause or excuse’ and are clearly meant to ‘abuse the processes of the courts and to

20

harass the adverse party ...’” (Morton, supra, 156 Cal.App.4th at p. 972; see also,|Wolfgram v.

21

Wells Fargo Bank (1997) 53 Cal.App.4th 43, 58.)

22

j

;

The vexatious litigant statutes were established “to curb misuse of the court system by
.

i

23

those acting in propria persona who repeatedly relitigate the same issues.” (Bravo; supra, 99

24

Cal.App.4th at p. 221, citing In re Bittaker (1997) 55 Cal.App.4th 1004, 1008.) “These

25

‘persistent and obsessive’ litigants would often file groundless actions against judges and other

In re, Mhanna and Hage 2013-6-FL-010520
-2-

/

l

court officers who made adverse decisions against them. Their abuse of the systejn not only

2

wastes court time and resources, but also prejudices other parties waiting their turn before the

3

courts.” (Bravo, supra, 99 Cal.App.4th at p. 221 [internal citation omitted].)

i

!
i

4

In addition to protecting the courts, the statutes also serve to protect the litigant who
!

5

suffers the financial burden of responding to someone who files numerous, meritless actions.

6

(Morton, supra, 156 Cal.App.4th at p. 970-971.) In order to establish that a litigant is vexatious,

7

“the trial court must conclude that the litigants[’] actions are unreasonably impacting the objects

8

of [his] actions and the courts as contemplated by the statute.” (Id., at p. 971.)

i

i

:

9

At the hearing of this matter the Court received evidence that Respondent,! in space ofjust

10

thirty four months, filed thirty four (34) separate requests for orders (hereinafter motions). Many

11

of Respondent’s motions sought to “correct” or modify prior Family Court orders; Respondent

12

also filed three (3) civil complaints that either name Petitioner or her attorney as defendants.

13

Among the requests made by Respondent were the following: Two; motions to prevent

14

Petitioner from traveling with the children to Los Angeles that were denied. Two! motions to

15

"release" police records which had no apparent legal basis and were denied. A motion that the

16

children not to be exposed to their maternal uncle Hicham Mhanna that was denied. A motion

17

for orders that Petitioner take domestic violence classes that was denied. A motion that

18

Petitioner take “motherhood counseling classes” that was denied. A motion regarding school

19

choice, to compel respondent to obtain a driver’s license and purchase a car that was denied. A

20

motion to compel the children to attend religious training that was denied. Two motions

21

involving requests to either bar information or release information regarding VAV/A that were

22

not only denied but also deemed to have been without any legal basis and frivolous.

23

Respondent filed multiple motions to reconsider prior orders without providing new facts

24

or relevant law that were all denied. (Although it was not a part of the evidence heard at the

25

hearing of this matter, since the date of the hearing on the instant motion Respondent has filed
i

In re, Mhanna and Hage 2013-6-FL-010520
-3-

Mol

1
2
3

another motion for reconsideration of the Court’s rulings.)
It is also worth noting that Respondent filed at least fifteen of his motions bn an ex parte
basis requesting orders shortening time. In April of 2016 alone Respondent filed three ex parte
j

4

motions in three weeks’ time. On at least ten occasions the Court denied the ordei- shortening
|.

5

time outright. The additional burden on the Court system and Petitioner for having to process

6

and respond to serial and largely unnecessary ex parte requests is relevant to the Court’s
i

j

7

determination as to whether or not Respondent meets the standard for declaring him a vexatious

8

litigant.

9

Also relevant to the Court in making its determination are the three (3) complaints filed

10

by Respondent against Petitioner or her attorney outside of the Family Court division.

li

Respondent’s first complaint was a small claims action decided in defendant’s favor. The

12

second complaint was a limited jurisdiction matter and defendant’s demurrer was jsustained

13

without leave to amend. The third complaint is an unlimited civil matter still in litigation. The
I

14

Court reviewed the allegations in Respondent’s complaints and it is clear that, in substance, they

15

seek redress for “damages” respondent claims to have suffered as the result of ord:ers decided

16

against him in the Family Court case.

I

17

It is undeniable that Respondent did meet with partial success on a number of his

18

motions. On balance however, the meritless or unnecessary motions far outweigh those that had

19

merit. Having considered all of the evidence, the credibility of the witnesses, the moving and

• 20

opposing papers, the entire court file, the applicable law, the arguments of Counsel and

21

Respondent, the Court finds that Petitioner has met her burden of proof and established to this

22

Court’s satisfaction that Respondent meets the criteria for being declared a vexatious litigant

23

pursuant to Code of Civil Procedure §391, subdivision (b) et seq.

24
25

III. ORDERS
For the above reasons, the court issues the following orders:

In re, Mhanna and Hage 2013-6-FL-010520
-4-

2o <x_
;
t

1

1.

Respondent, GHASSAN HAGE, shall not file any further litigation, while; in propria

2

persona, without first obtaining leave of the presiding Judge of the Superior Court of California,

3

County of Santa Clara.

4

2.

5

contempt of court.

6

3.

7

GHASSAN HAGE, unless Mr. HAGE first obtains an order from the presiding ju|dge permitting

8

the filing.

9

4.

!

Disobedience of the order by Respondent, GHASSAN HAGE, may be punished as a
i

The Clerk of Court is enjoined from filing any litigation presented by Respondent,

;

Should the Clerk mistakenly file litigation on Respondent, GHASSAN HAGE's behalf,
■’

i

10

without an order from the presiding judge, then defendant or responding party in said case may

11

file with the clerk and serve, or the presiding justice or presiding judge may direct the clerk to

12

file and serve, on Mr. HAGE and other parties, a notice stating that Mr. HAGE has been found to

13

be a vexatious litigant subject to a pre-filing order. The filing of this notice shall automatically

14

stay Respondent GHASSAH HAGE's litigation. The litigation shall be automatically dismissed

15

unless Respondent GHASSAN HAGE, within 10 days of the filing of that notice, obtains an

16

order from the presiding judge permitting the filing of said litigation. If the presiding judge

17

issues an order permitting the filing, the stay of the litigation shall remain in effect, and

18

defendant or responding party in said case need not plead, until 10 days after either of them is

19

served with a copy of the order.

20

5.

21

only if it appears that the litigation has merit and has not been filed for the purposes of

22

harassment or delay and that it does not request relief that has already been denied by the court.

23

The Presiding Judge may condition the filing of the litigation upon the furnishing ;of security for

24

the Opposing Party's benefit, as provided in Section 391.3 of the Code of Civil Procedure.

The Presiding Judge shall permit the filing of Respondent GHASSAN HAGE’s litigation

25

l'

In re, Mhanna and Hage 2013-6-FL-010520
-5-

!

JIOL

1

6.

For purposes of this order, "litigation" includes any petition, complaint, application,

2

motion, request for orders, or order to show cause, other than a discovery motion,! in a

3

proceeding under the Family Code or Probate Code.

!

Exhibits are released to the proffering parties.

4

I

5

IT IS SO ORDERED.
i
!

6
7

Dated:

JUL 2 7 2017

8
J

9

HbnrCHfistophertj. Rudy
Judge of the SupraiedfCourt

10
11

'

12

i

13
14
i

15

i

16
17
18
<
i

19
20

I

21
22
23
24

i

25

In re, Mhanna and Hage 2013-6-FL-010520
-6-

22o^
A PP6MSM* C

SUPREME COURT

APR 2 9 2020
Court of Appeal, Sixth Appellate District - No. H045077
Jorge Navarrete Clerk

S260845

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re the Marriage of FIDA MHANNA and GHASSAN HAGE.
FIDA MHANNA, Respondent,
v.
GHASSAN HAGE, Appellant.
The petition for review is denied.

CANT1L-8AKAUYE

ChiefJustice

a 3cx
Appeivory c>
!.
FL-340
FOR COURT USE ONLY

ATTORNEY OR PARTY WITHOUT ATTORNEY (Name. Stale Bar number, anti address):

DAVID A. YOMTOV 167097
—Attorney At Law
111. North Market Street, Suite 910
San Jose, CA95113
TELEPHONE NO.: (408) 993-0808

FILED
FAX NO.

Ulb „DL 12 A C 00

(Optional):(4Q8) 271-9476

E-MAIL AD0RESS (OpOonetJ:

ATTORNEY FOR (Name); FI DA MH AN N A
superior court of CALIFORNIA, county
street address: 605 W. El Camino Real

OF Santa Clara

MAILING ADDRESS:
CITY AND ZIP CODE:
QRANCM NAME:

Sunnyvale, CA 94087
Sunnyvale Branch

Mickela

PETITIONER/PLAINTIFF: FIDA MHANNA
RESPONDENT/DEFENDANT: G HAS SAN H AGE
OTHER PARTY:
CASE NUMBER:

*

6-13-FL-010520

FINDINGS AND ORDER AFTER HEARING

;

1. This proceeding was heard
Room:
on (date): 6/6/16
at (time): 1:30 p.m.
in Dept.: 83
by Judge (name): Mary Ann Grilli
Q Temporary Judge
by (name): Fida Mhanna
On the order to show cause, notice of motion or request for order filed (date): 1/13/16
IXl Attorney present (name): David A. YomtOV
a. (XI Petitioner/plaintiff present
I I Attorney present (name):
b.
Respondent/defendant present
□ Attorney present (name):
c. □ Other party present
THE COURT ORDERS
2. Custody and visitation/parenting time:

As attached

□ on form FL-341

□ Other

IXl Not applicable

3. Child support:

As attached

I

I on form FL-342

□ Other

1X1 Not applicable

4. Spousal or family support:

As attached

I

I on form FL-343

I

I Other

IXl Not applicable

5. Property orders:

As attached

I

I on form FL-344

□ Other

IXl Not applicable

6.' Attorney's fees

As attached

I

1 on form FL-346

Q Other

1X1 Not applicable

7. Other orders:

1X1 As attached

□ Not applicable

8. All other issues are reserved until further order of court.

Date:

>

n JU i<*

JUDICIAL OFFICER

Approved as conforming to court order.
^

fihassan Hags

SIGNATURE OF ATTORNEY FOR
Form Adopted (dr Mandatory Use
L
Judicial Council of California
FL-340 (Rev. January 1, 2012J
(T3| Afonin PfdtiV_____

in Dept.:

at (time):

9. □ This matter is continued for further hearing on (date):
on the following issues:

Uary Ann Grilli

_______________________________________
I

I PETITIONER/PLAINTIFF

1X1 RESPONOENT/DEFENDANT

I

1 OTHER PARTY

Paso 1 or 1

FINDINGS AND ORDER AFTER HEARING
(Family Law—Custody and Support—Uniform Parentage)

WMV.cou/ls.ca.gov

Mhanna

fSSEHTIAl fORNS1"
\

o2.*fGC
I

MC-020

SHORT TITLE:

(

CASE NUMBER:

— Mhanna vs. Hage

6-13-FL-010520

1

The court vacated Petitioner's motion to have Respondent found to be a vexatious litigant off

2

calendar, with leave to re-file said motion. In the event that Petitioner re-files this motion, she shal

3

4

a. Indicate that said motion is to be a long cause matter and calendar it as such, and

5

b. Submit all exhibits to the court and to Respondent no later than ten days prior to the hearing.

6
7

//

8
9

//

10
11
12

.
//

'13
14

//

15
16

!

//

17
•18

//

19
20

//

21
22

//

23
24

//

25
26
27

(Required for verified pleading) The items on this page stated on information and belief are (specify item numbers, not line
numbers):______________________________________
This page may be used with any Judicial Council form or any other paper filed with the court.

Form Approved by the
Judicial Council of California
MC-O20 f Nfew January 1,1987J
Optional Form
(c

additional page
.\fi»rn'u Owin'*_____

Mhanna

Attach to Judicial Council Form or Other Court Paper

&IEHEHM FORMS'"

Page.
CRC 201,501

£5a
DEPARTMENT 76 LONG CAUSE AND TRIAL POLICIES
JUDGE CHRISTOPHER RUDY
For all matters set for a long cause hearing or trial in Department 76, the parties are
required to comply with all applicable current California Rules of Court, and the Santa
Clara County Superior Court Local Rules of Court.
The Court expects the parties and counsel to continually meet and confer in advance
of and during the hearing, to attempt to resolve, narrow or limit the issues, and to
streamline the procedure.
The Court shall be promptly notified of any complete or partial settlement, revised
time estimates, scheduling issues, or any other matters which may affect the conduct
and timing of the hearing.
(1) PRE-TRIAL REQUIREMENTS
a. Meet and Confer Requirement: Prior to any mandatory settlement conference and
scheduled trial or long cause hearing, attorneys or self-represented parties shall meet
and confer to discuss and exchange trial exhibits and discuss the issues below. All
parties and counsel are expected to make a good faith effort to resolve all issues, as
required by California Rule of Court 5.98. The parties do not have to meet and confer
if both parties are self-represented and there is a restraining order preventing contact
between them.
i.
The names of witnesses expected to be called at the hearing, (including
expert witnesses), with the exception of rebuttal witnesses, any scheduling problems
with any witness, and any witness testimony to be presented by offer of proof;
ii.
Each party's list of exhibits, except rebuttal exhibits. Exhibit lists and
copies of all exhibits to be used at trial shall be exchanged no later than the deadline
for serving the Trial Brief;
iii.
Objections to witnesses and exhibits; including any objections to
proceeding by offer of proof; and
iv.
Any proposed stipulations, including stipulating to the admission of
exhibits or reports.
b. Trial Brief: The parties shall file and serve a Trial Brief in full compliance with
California Rule of Court 5.394, which is set forth below:
Rule 5.394. Trial or hearing brief
(a) Contents of brief
For cases in which the judge orders each party to complete a trial or hearing brief or
other pleading, the contents of the brief must include at least:

2016

Department 76 Trial Policies

1

(1) The statistical facts and any disputes about the statistical facts. Statistical facts that
may apply to the case could include:
(A) Date of the marriage or domestic partnership;
(B) Date of separation;
(C) Length of marriage or domestic partnership in years and months; and
(D) Names and ages of the parties' minor children;
(2) A brief summary of the case;
(3) A statement of any issues that need to be resolved at trial;
(4) A brief statement summarizing the contents of any appraisal or expert report to be
offered at trial;
(5) A list of the witnesses to be called at trial and a brief description of the anticipated
testimony of each witness, as well as name, business address, and statement of
qualifications of any expert witness;
(6) Any legal arguments on which a party intends to rely; and
(7) Any other matters determined by the judge to be necessary and provided to the
parties in writing.
(b) Service of brief
The parties must serve the trial or hearing brief on all parties and file the brief with the
court a minimum of 5 court days before the trial or long-cause hearing.
Rule 5.394. adopted effective January 1,2013.
The Trial Brief shall also include:
i. An updated time estimate for the hearing;
ii. Any stipulations that have been reached;
iii. A list of any pretrial motions or motions in limine.
Any pretrial motions or motions in limine shall be submitted with the Trial Brief.
(2) TRIAL PROCEDURE
a.
Documents: Documentary evidence should be offered by stipulation, to avoid
the need for foundational witnesses. Parties shall provide to the clerk, on the day of
trial before the case is called, three copies of a list of exhibits and three copies of each
exhibit, with the exception of impeachment exhibits: one for the trial judge, one for
the other party, and one to be marked at the trial or hearing. (Please note for
Department 76: the use of trial exhibit binders is strongly encouraged.)
b.
Interpreters: The party calling any witness needing an interpreter shall arrange
in advance for the interpreter and shall pay his or her compensation.
c.
Failure to Appear: If a party fails to appear at the trial or long cause hearing, the
Court may take the matter off calendar, proceed in the absence of the party, or
impose other sanctions.
d. Trial Time Estimates: The Family Law Division sets trials and long cause hearings
based on the parties' reasonable time estimates. The time estimates will be strictly

2016

Department 76 Trial Policies

2

•2?<l
enforced, and failure to complete in time may result in a mistrial whenever the
Court's calendar will be adversely affected by allowing excess time.

2016

Department 76 Trial Policies

3

JSo.

i

COURT OF APPEAL OF THE STATE OF CALIFORNIA
IN AND FOR THE SIXTH APPELLATE DISTRICT

2
3
4
5

FIDA MHANNA,

)

Plaintiff-Respondent,

)

)
6

vs .

)

7

GHASSAN HAGE

)
)

8

Santa Clara County No.
2013-6-FL-010520
Appeal No. H045078
Volume No. 1
Pages 1 through 31/300

)
)
)

Defendant-Appellant.

9
10
11
12
13

REPORTER'S TRANSCRIPT ON APPEAL
FROM THE JUDGMENT OF THE SUPERIOR COURT
OF THE STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF SANTA CLARA
HONORABLE CHRISTOPHER G. RUDY, JUDGE

14

May 15,

15

2017

16
17
18

APPEARANCES:

19

FOR APPELLANT:
Ghassan Hage
2054 Montecito Avenue #10
Mountain View, CA 94043

20
21
22
23

FOR RESPONDENT:
David Alexander Yomtov, Attorney at Law
111 North Market Street, Suite 700
San Jose, CA 95113

24
25

Official Court Reporter:

Tina M. White, CSR
License No. 9141

26
27
— oOo —
28

5

1
2

THE COURT:
not guilty?
MR. YOMTOV:

3
4

And does your client enter a plea of

She enters a plea of not guilty,

Your Honor.
THE COURT:

5

All right, the arraignment has been

6

taken care of.

7

do is I believe we have — wait while I click to the right

8

screen here.

That matter can be set.

MR. YOMTOV:

9

What I 1d like to

We're set on June 6, Your Honor,

10

for vexatious litigant hearing.

11

We might be able to get a start with this at the end of

. 12

That's an all day matter.

those proceedings.
MR. HAGE:

13

I don't think so, Your Honor, because

14

the vexatious litigant needs at least one day and a half,

15

and you have said at that time that you will continue it,

16

so we need additional different day for this matter.

17

least four hours,

four to five hours.

MR. YOMTOV:

18

At

Well, considering that every one of

19

the allegations in my humble opinion is based upon hearsay,

20

I think that it's going to go a lot faster than Respondent

21

expects.

22

that this is extremely abusive.

23

there's not been a month that we have not been in court on

24

a motion filed by Mr. Hage.

25
26
27
28

Plus I have to -- I can't stress this enough,

MR. HAGE:

We have been in court,

Mr. Yomtov has committed perjury in

this court with his client.
THE COURT:

Mr. Hage and Mr. Yomtov,

to maintain a little bit of

I just want

3o CL

ArfiPavioi* G

1

COURT OF APPEAL OF THE STATE OF CALIFORNIA
IN AND FOR THE SIXTH APPELLATE DISTRICT

2
3
4
5

FIDA MHANNA,
Plaintif f-Respondent,

)
)
)

Santa Clara County No.
2013-6-FL-010520

)

Appeal No. H045077

6

vs .

)

7

GHASSAN HAGE

)
)

Volume No. 3
Pages 601 through 825/900

)

8

Defendant-Appellant.
)

9
10
11
12
13

REPORTER'S TRANSCRIPT ON APPEAL
FROM THE JUDGMENT OF THE SUPERIOR COURT
OF THE STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF SANTA CLARA
HONORABLE CHRISTOPHER G. RUDY, JUDGE

14

June 22,

15

2017

16
17
18

APPEARANCES:

19

FOR APPELLANT:
Ghassan Hage
2054 Montecito Avenue #10
Mountain View, CA 94043

20
21
22
23

FOR RESPONDENT:
David Alexander Yomtov, Attorney at Law
111 North Market Street, Suite 700
San Jose, CA 95113

24
25

Official Court Reporter:

Tina M. White, CSR
License No. 9141

26
27
— oOo —
28

622

1

Mr. Yomtov and the Petitioner, denied that I petition her

2

for her immigration.

3

everything in the front of the lawyer.

4

information in July 2015.

5

subpoena to bring Mr. Kennedy to the Court.

6

up.

7

documents to prove this is perjury, and also this is one of

8

the perjury that the Civil Court has this in the

9

proceeding.

10

She signed the papers, she signed
I provide all this

I asked the Court to issue a
He didn't show

I want him only to say that I am honest.

Your Honor,

I have a

it's hard, it's hard for a man who has

11

to take care of children, being a responsible team leader

12

as an engineer and work days and night, and being able to

13

follow up on all those thing with Mr. Yomtov in Civil

14

Court, Family Court, State Bar of California, Small Claim.

15

And I will leave it to you, Your Honor, after going into

16

all those exhibits to -show you some of the items.

17

It took 12,

18

validate what I'm saying.

19

start the trial if you want to wish to proceed on this

20

trial, you're going to see evidence that prove every word

21

that I'm saying is correct.

22

is why I ask you, Your Honor,

23

to be three days.

24

day and then we'll continue,

25
26

14 months for the Judge Grilli to
so when we

This is not only this.
it's a long cause,

This

it's going

But Your Honor, you said we'll do one

THE COURT:
Mr. Yomtov,

I filed motions,

and I accept all this.

All right, thank you.

are you ready to proceed?

27

MR. YOMTOV:

28

THE COURT:

I am, Your Honor.
Okay.

So

3i<v
694

1

the 2/26 hearing,

2

the binder of Mr. Yomtov, there was a Court order listing

3

several items in it.

4

children traveling,

5

days was not to accommodate her taking a parenting class

6

because we had a Court order in 2014 for the Petitioner to

7

take a parenting class.

10

item number 1 from

Which is like travel, take the
and also Father shall switch custody of

THE COURT:

8
9

if you see the item,

Six months,
I'm sorry,

six months

I didn't watch the clock.

It's gone to 12:01, we have to take our afternoon break.
Sorry about that, Mr. Hage.

11

MR. HAGE:

12

THE COURT:

I understand.
I didn't mean to interrupt you

13

there.

But I'd like you to save your place so you know

14

where you left off.

15

be in recess until then.

16

Mr. Yomtov,

We're coming back at 1:30.

So we'11

if you would over the lunch hour take a

17

look at Mr. Hage's exhibits and get an idea of what you

18

thought you'd object to admitting so the Court can

19

determine whether or not

20

confer with Mr. Hage,

21

what objections you might have to some of these exhibits,

22

okay?

23

MR. YOMTOV:

24

MR. HAGE:

I'm not asking you to meet and

I'm just asking you to have in mind

I'll do that.
I want to also ask the Court to keep

25

in mind that this will need to be continued because there

26

are items to
THE COURT:

27
28

continued.

This case is not going to be

We're hearing this case today.

You have until

33<^
695

1

4:45 today.

2

asking Mr. Yomtov to take a look at these exhibits so we

3

can streamline things if there's any rulings the Court's

4

going to have to make.

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

So we'll be lack at 1:30.

That's why I'm

All right, we're in recess now.

(Whereupon, Court recessed until 1:30 p.m. of the
same day.)

34a.
719

1

Department because the incident happened in San Francisco.

2

THE COURT:

3

MR. HAGE:

4

THE COURT:

5

MR. HAGE:

Okay.
And they told me you have
Mr.
— request an order from the Court.

6

When I went to the Court and file a motion they say we

7

cannot give it to you, and then this is why I left not

8

knowing what to do on this.

9

right to protect our daughter.

10

abused,

11

mother's sibling,

12

rights as a father?

13

I'm here.

14

But as a father I have the
If our daughters say we're

and we don't want to go to Los Angeles to see the
so what should I do?
No, of course not.

I'm here for the kids,

Should I leave my
And this is why

I'm not here for myself.

Your Honor, to answer your question, Mr. Yomtov gave

15

me two binders.

He gave me two binders now.

16

asking me to go into one by one for him,

17

after finishing my stuff.

18

got -- he has to provide me five days before the trial of

19

the exhibits that he wants to provide.

20

He gave it to me right now.

21

it, to do it right away.
THE COURT:

22

If you're

I will do it later

But you have a Court rule that I

Did he do it?

No.

And you're asking me now to do

And this

Okay.

So, so, Mr. Hage, the time

23

for you to tell the Court that you had an objection to any

24

of Mr . Yomtov's exhibits was at 9:00 o'clock this morning

25

when the Court sat down with these binders and we started

26

this case.

27
28

You didn't say a word about that.
MR. HAGE:

move in this,

so

I'm positive, Your Honor, we want to

35^
720

1

THE COURT:

I'm just saying if you had an

2

objection to Mr. Yomtov's exhibits

3

of his exhibits are just the Court file.
MR. HAGE:

4

and by the way, all

But I have to go and search for all

5

my list, and I did it through the — during the lunch time.

6

I was quickly —

7

THE COURT:

All right, Mr. Hage,

I'll let you do

8

what you want.

9

Mr. Yomtov's allegations against you so that you could

I was trying to help you go through each of

10

address them and refute them, but I'm going to let you do

11

whatever it is you think you need to do to convince this

12

Court that this motion shouldn't be granted.

13

just like you to tell me in advance before you talk about

14

something what the exhibit is and we'll have it marked and

15

we'll just proceed from there.

16

MR. HAGE:

17

THE COURT:

18

three exhibits so far.

•19

MR. YOMTOV:

20

THE COURT:

21

MR. HAGE:

THE COURT:

All right, we have marked

We've marked B, C,

and D.

No objection.
All right.

Your next exhibit,

Yes.

Also there was no response'from

I'm sorry, what's the exhibit you're

looking at?

26

MR. HAGE:

27

THE COURT:

28

Okay.

Mr. Yomtov

24
25

Thank you, Your Honor.

Mr. Hage?

22
23

And I would

Exhibit E.

Yeah, now I'm Exhibit E.
All right.

So you're looking at

APP£M>ix H
APP-002
ATTORNEY OR PARTY WITHOUT ATTORNEY:

name: GHASSAN

STATE BAR NO.:

FOR COURT USE ONLY

HAGE

FIRM NAME:

STREET ADDRESS: 2054 MONTECITO AVENUE #10
CITY: MOUNTAIN VIEW
TELEPHONE NO.: 650-5806274

STATE: CA

ENDORSED

ZIP CODE: 94043

FAX NO.:

zon AUG 25 A & SM

E-MAIL ADDRESS:
ATTORNEY FOR (name):

CIEKK jT ~:|£ COURT
EUPE-tii): U 'iH - OF CA
COUIOY 0r£..\‘7A CLARA

SUPERIOR COURT OF CALIFORNIA, COUNTY OF SANTA CLARA
STREET ADDRESS: 201 N. FIRST STREET
mailing AODRESS: 191 N. FIRST STREET
CITY AND ZIP CODE: SAN JOSE , CA, 95113
branch NAME: FAMILY JUSTICE CENTER (FAMILY DIVISION)

Bdam Batrez^riV

PLAINTIFF/PETITIONER: FIDA MHANNA
DEFENDANT/RESPONDENT: GHASSAN HAGE
CASE NUMBER:

nn NOTICE OF APPEAL
□ CROSS-APPEAL
(UNLIMITED CIVIL CASE)

-FL-010520

Notice: Please read Information on Appeal Procedures for Unlimited Civil Cases (Judicial Council form
APP-001) before completing this form. This form must be filed in the superior court, not in the Court of Appeal.
A copy of this form must also be served on the other party or parties to this appeal. You may use an
applicable Judicial Council form (such as APP-009 or APP-009E) for the proof of service. When this document
has been completed and a copy served, the original may then be filed with the court with proof of service.

1. NOTICE IS HEREBY GIVEN that (name): GHASSAN HAGE
appeals from the following judgment or order in this case, which was entered on (date): 8/1/17 Order of Vexatious Litigant
|

| Judgment after jury trial

I

| Judgment after court trial

l

| Default judgment

l| Judgment after an order granting a summary judgment motion
|

l Judgment of dismissal under Code of Civil Procedure, §§ 581d, 583.250, 583.360, or 583.430

l

| Judgment of dismissal after an order sustaining a demurrer

|

l An order after judgment under Code of Civil Procedure, § 904.1(a)(2)

|

| An order or judgment under Code of niuil Procedure, § 904.1(a)(3)-(13)
, CCP 657. The presiding Judge has violated a court order filed on 07/12/16 by a prior Judge(on retirement) who said "Subrr

I x | Other

all Exhibits to the court and to Respondent(Rsp) no later than ten days prior to the hearing.34 Exhibits were submitted by
petitioner's attorney to Rsp and to court on the morning of the trial in the Courtroom. Rsp objected to the Judge and
2

For cross-appeals only requested 3 times to continue the trial but the Judge refused. Violation of Rsp's right. Violation of Judicial C6de of Ethics.

a. Date notice of appeal was filed in original appeal:
b. Date superior court clerk mailed notice of original appeal:
c. Court of Appeal case number (if known):

Irregularity in the proceedings of the court, abuse of discretion by which
Respondent was prevented from having a pretrial rights, rights during the tri;
.. and post-trial rights. Judge Knowing the notice of unavailability of Responder
between 7/15/17 and 8/15/17 has delayed filing the order until when
Respondent was unavailable to prevent him filing motion of reconsideration.

Date: August 25, 2017

►

GHASSAN HAGE
(TYPE OR PRINT NAME)

(SJJ

[EOF PARTY OR ATTORNEY)

Page 1 of 1
Form Approved for Optional Use
Judicial Council of California
APP-002 (Rev. Januaiy 1,2017J

NOTICE OF APPEAL/CROSS-APPEAL (UNLIMITED CIVIL CASE)

(Appellate)

Cal. Rules of Court, rule 8.100
ymw.couits.ca.gov

3?^

MWrv&ix, 1
1

COURT OF APPEAL OF THE STATE OF CALIFORNIA

2

IN AND FOR THE SIXTH APPELLATE DISTRICT

3
4
5

GHASSAN HAGE,

)

6

PLAINTIFF/APPELLANT,

7

) CASE NO.
) 2013-6-FL-010520

VS.

)
)

8
9

FIDA MHANNA,

) June 6, 2016
)

DEFENDANTS/RESPONDENTS.

)
)
)

10
11
12

APPEAL TO THE COURT OF APPEAL

13

FROM THE SUPERIOR COURT OF SANTA CLARA COUNTY

14

HON. MARY ANN GRILL!, JUDGE PRESIDING DEPT. 83

15
16

VOLUME I

17

Pages 1-300

18
19
20

APPEARANCES:
FOR THE PLAINTIFF/
APPELLANT:

GHASSAN HAGE
IN PROPRIA PERSONA

FOR THE DEFENDANT/
RESPONDENT:

DAVID YOMTOV
ATTORNEY AT LAW

21
22
23
24
25
26
27
28

STEPHANIE ESTES, CSR NO. 12452
OFFICIAL REPORTER

1

3 So.
3
1

INDEX OF WITNESSES

2
3
4

PETITIONER'S

5

WITNESSES:

6

GHASSAN HAGE

DIRECT

CROSS

REDIR.

RECR.

54-55

7
8
9
10
11

INDEX OF EXHIBITS

12
13

PETITIONER'S

14

EXHIBITS:

15

No. 1

16
17
18
19
20
21
22
23
24
25
26
27
28

two page document

IDENTIFIED
10

EVIDENCE
11

10
1

Hage's post —

2

THE COURT:

3

MR. YOMTOV:

4

THE COURT:

5

MR. YOMTOV:

6
7

So, have you given that to the clerk?
I have.
Okay.
And I ask that be marked Petitioner's

1.
THE COURT:

All right.

The document, which

8

appears to be a two page document, is going to be marked

9

for identification as Petitioner's Exhibit 1.

10

(Petitioner's Exhibit No. 1 was marked

11

for identification.)

12

MR. YOMTOV:

And this is a demonstrative exhibit.

13

I ask the Court to take

14

convenience as we go through —

15

THE COURT:

to review that for Court's

Well, hang on a sec.

Counsel, until

16

this is admitted it's not something I'm going to be able

17

to look at.

18

MR. YOMTOV:

19

THE COURT:

20
21
22

Well
And you could lay the foundation and

you can do it that way.
MR. YOMTOV:

The foundation is that this is

spreadsheet that is — it indicates the various motions

23

THE COURT:

24

MR. YOMTOV:

25

THE COURT:

26

MR. YOMTOV:

27

THE COURT:

28

MR. YOMTOV:

Who prepared it?
that Mr. Hage has filed —
No.

Who prepared this?

I prepared this motion -Okay.
— after reviewing the voluminous

STEPHANIE ESTES, CSR NO. 12452

4 0 CL
11
1

files

2

THE COURT:

3

Mr. Hage, are you objecting to this exhibit?

4

THE RESPONDENT:

5

drop it in front of me.

6

what is in it.

7

THE COURT:

Okay, hang on a sec.

I didn't read it.

I mean he just

I haven't had a chance to read

Okay.

So, what we're going to do here

8

is I'm going to have the document admitted subject to a

9

motion to strike or other appropriate motion.

10

(Petitioner's Exhibit No. 1, previously marked for

11

identification, was received in evidence.)'

12

THE COURT:

13

proceed by offer of proof?

14

proceed?

15
16
17

MR. YOMTOV:

And, counsel, are you asking to
How are you suggesting we

Exactly, Your Honor.

I don't believe

that this is a testimony centered type of motion.
THE COURT:

Well, I would tell you that you may

18

need a hearing on some issues.

19

obligation and that of your client to prove up the issues

20

that constitute a vexatious litigant finding.

21
22

MR. YOMTOV:

Because it is your

Well, Your Honor, when I review

section 391 of the Civil Code it appears to me that --

23

THE COURT:

24

MR. YOMTOV:

25

THE COURT:

26

MR. YOMTOV:

27

THE COURT:

28

MR. YOMTOV:

Civil or Code of Civil Procedure?
I'm sorry?
CCP?
Yes, 3391 (SIC).
I think it's 391
Yes.

STEPHANIE ESTES, CSR NO. 12452

L\ !<k
18
1

Odyssey system is — is not going so smoothly from our

2

perspective.

3

So, Mr. Haige, what's your position on

THE COURT:

4

whether or not we should continue this or require them to

5

refile?

6

THE RESPONDENT:

Whatever you decide, Your Honor.

7

I object on — on — I object to continue it because

8

there's no reason to continue it.

9

And I'm saying this is wrong.

There's no information.

We stated for the first

10

one, Your Honor.

11

— go in the number — number 6 or 21 that Mr. Yomtov

12

is

There's some information I know and then

so, continuing is not my — I don't accept it.

13

THE COURT:

14

THE RESPONDENT:

15

THE COURT:

Don't accept what?
Continuing this.

Okay, here's what we're going to do,

16

with all due respect to everybody, I think this motion

17

needs to be refiled.

18

motion without prejudice to your refiling,

19

you elect to refile it will be a long cause matter, please

20

indicate that on the pleadings.

21

So, I'll vacate the trial on this
In the event

And reluctantly I say this, I want copies of any

22

documents that you intend to rely upon in that motion

23

attached or provided to the Court as exhibits and to Mr.

24

Hage as exhibits at least ten days in advance, ten court

25

days in advance, of the continued hearing.

26

MR. YOMTOV:

27

the courtroom, Your Honor?

28

THE COURT:

And

And the exhibits to be provided to

Yes, you can provide them either by

STEPHANIE ESTES, CSR NO. 12452

19
1

filing them as attachments to the motion —

2

MR. YOMTOV:

I would not do that.

3

THE COURT:

or as exhibits.

4

MR. YOMTOV:

5

It would be far too much to give to

the file clerk.

6

THE COURT:

So, then we'll do it as exhibits, but

7

at least ten calendar days before or court days, I'm

8

sorry.

9

MR. YOMTOV:

And I want to indicate, Your Honor

10

THE COURT:

You'll need to resubmit the proposed

11

exhibits.

12

MR. YOMTOV:

I will do that.

13

And I want to indicate two things.

First of all,

14

the motion is not intended to live or die on this one

15

exhibit.

16

This is just to make ease of understanding.
THE COURT:

Well, counsel, I think for you to

17

proceed on a vexatious litigant motion at the very least I

18

need to see the paperwork that is the order that you're

19

seeking to, as part, to declare him vexatious.

20

MR. YOMTOV:

Right.

And, again, I'm suffering

21

from my own limitations here.

I've brought a lot of

22

orders following motions to prove that they were denied

23

for lack of merit.

24

THE COURT:

25

THE RESPONDENT:

26

THE COURT:

And again —
Objection.

— you need to have those as exhibits

27
28

THE RESPONDENT:

Objection, Your Honor.

STEPHANIE ESTES, CSR NO. 12452

Cf3<x_
18
1

Odyssey system is — is not going so smoothly from our

2

perspective.

3

THE COURT:

So, Mr. Hage, what's your position on

4

whether or not we should continue this or require them to

5

refile?

6

THE RESPONDENT:

Whatever you decide, Your Honor.

7

I object on — on — I object to continue it because

8

there's no reason to continue it.

9

And I'm saying this is wrong.

There's no information.

We stated for the first

10

one, Your Honor.

11

— go in the number — number 6 or 21 that Mr. Yomtov

12

is

There's some information I know and then

so, continuing is not my — I don't accept it.

13

THE COURT:

14

THE RESPONDENT:

15

THE COURT:

Don't accept what?
Continuing this.

Okay, here's what we're going to do,

16

with all due respect to everybody, I think this motion

17

needs to be refiled.

18

motion without prejudice to your refiling.

19

you elect to refile it will be a long cause matter, please

20

indicate that on the pleadings.

21

So, I'll vacate the trial on this
In the event

And reluctantly I say this, I want copies of any

22

documents that you intend to rely upon in that motion

23

attached or provided to the Court as exhibits and to Mr.

24

Hage as exhibits at least ten days in advance, ten court

25

days in advance, of the continued hearing.

26

MR. YOMTOV:

27

the courtroom, Your Honor?

28

THE COURT:

And

And the exhibits to be provided to

Yes, you can provide them either by

STEPHANIE ESTES, CSR NO. 12452

£ X\G/v>3de>V

